L

Appendix A

\

ROBERT CARTER. Petitioner, v. VINCENT MOONEY, et al., Respondents.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2019 U.S. Dist. LEXIS 107910
NO. 18-2366
June 25, 2019, Decided
June 25, 2019, Filed
Editorial information: Subsequent History
Adopted by, Request granted, Objection overruled by, Writ of habeas corpus denied, Dismissed by Carter
v. Mooney, 2020 U.S. Dist. LEXIS 92977 (E.D. Pa., May 28, 2020)
Editorial Information: Prior History
Commonwealth v. Carter, 2014 Pa. Super. Unpub. LEXIS 3247 (July 15, 2014)
Counsel

{2019 U.S. Dist. LEXIS 11ROBERT CARTER. Petitioner, Pro se
HUNLOCK CREEK, PA.
For VINCENT MOONEY, THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, THE ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA, Respondents: BANAFSHEH AMIRZADEH, PHILADELPHIA DISTRICT
ATTORNEY'S OFFICE, PHILADELPHIA, PA.
Judges: MARILYN HEFFLEY, UNITED STATES MAGISTRATE JUDGE.
Opinion
Opinion by:

MARILYN HEFFLEY
Opinion

REPORT AND RECOMMENDATION
MARILYN HEFFLEY, U.S.M.J.
This is a pro se petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 by Robert
Carter ("Petitioner" or "Carter"), a prisoner incarcerated at the State Correctional Institution Retreat in
Glen Lyon, Pennsylvania. For the following reasons, I recommend that the petition be denied.
I. FACTUAL AND PROCEDURAL HISTORY
On April 19, 2013, after a jury trial in the Philadelphia County Court of Common Pleas, Carter was
convicted of third-degree murder, 18 Pa. Cons. Stat. § 2502(c); homicide by vehicle, 75 Pa. Cons.
Stat. § 3732(a); causing an accident involving death while not properly licensed, jd. § 3742.1(a); three
counts of aggravated assault by vehicle, id; § 3732.1(a); three counts of first-degree aggravated
assault, 18 Pa. Cons. Stat. § 2702(a); recklessly endangering another person, id. § 2705; and
receiving stolen property, id § 3925(a). Opinion at 1, Commonwealth v. Carter. No.
CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila {2019 U.S. Dist. LEXIS 2} Cnty. Oct. 30, 2013)
[hereinafter "Trial Ct. Op."]. On the same date, the trial court imposed an aggregate sentence of 25 to
50 years' incarceration. Id. The trial court summarized the facts underlying Carter’s convictions as
follows:

1yccases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

On April 5, 2011, at approximately 7 p.m., Philadelphia Police Officers Joseph Rapone and Bill
Postowski were patrolling the area of Southwest Philadelphia. They were parked at the corner of
55th Street and Kingsessing Avenue when they observed a silver Acura driving down the street.
As Acuras are commonly stolen vehicles in Philadelphia, Officer Rapone ran the license plate of
the Acura through the patrol vehicle's computer. The computer report indicated that the Acura had
been stolen in Upper Darby. Officer Rapone immediately activated the lights and sirens on his
patrol car and began following the car, which was driven by [Carter], Instead of pulling over,
[Carter] ran a stop sign and accelerated. Officers Rapone and Postowski continued pursuing
[Carter] for a number of blocks, during which [Carter] continued to accelerate ultimately reaching
speeds of 75 to 80 miles per hour, and disobeyed traffic signals. Officer Rapone called for
backup. During the{2019 U.S. Dist. LEXIS 3} chase, Officer Rapone observed that the car had
two occupants: [Carter] who was driving, and another person, later identified as Kalil Sephes, who
was sitting in the front passenger seat.
When [Carter] reached the corner of 58th Street and Chester Avenue, he ran a red light,
smashing into the right passenger side of a Hyundai Sonata driven by David Gordon, Jr. Officers
Rapone and Postowski, who had been approximately one block away when the crash occurred,
arrived at the scene moments later. The silver Acura that [Carter] had been driving was pinned
against a wall on the northwest corner of 58th Street and Chester Avenue. Mr. Sephes had been
ejected from the vehicle and was lying next to the passenger side of the Acura. It was immediately
apparent that he was deceased. [Carter] was trapped in the driver's seat of the vehicle.
As Officer Rapone was attempting to extract [Carter] from the vehicle, he heard a voice say
"help," and discovered that an elderly woman, later identified as Henrietta Davis, was trapped
underneath the Acura. Ms. Davis had been waiting for a trolley at the corner of 58th Street and
Chester Avenue along with her friends, Lena Campbell and Leslie Downer. When [Carter's]{2019
U.S. Dlst. LEXIS 4} Acura crashed into the wall on the corner, Ms. Davis and Ms. Campbell had
been hit by the car and trapped. Police were able to extricate them from the wreckage of the
Acura, which was mangled and burning. Mr. Downer had been hit by the Acura and was lying on
the ground near the car. [Carter] was cut from the driver's seat of the Acura [by] using the jaws of
life.
All of the victims were taken to area hospitals except for Kalil Sephes, who was pronounced dead
at the scene by paramedics. His cause of death was a torn brain stem. Ms. Davis, who was 79
years old, had suffered a broken leg, a concussion, a broken nose, and fractured ribs. Lena
Campbell, who was 82 years old, suffered a concussion and fluid in her abdomen. Leslie Downer,
who was 85 years old, suffered a cranial hemorrhage, a broken jaw, a fractured rib, and soft
tissue swelling. Mr. Gordon, who was 29 years old, suffered a broken leg.Opinion at 1-3,
Commonwealth v. Carter. No. 2373 EDA 2013 (Pa. Super. Ct. July 15, 2014) (quoting Trial Ct.
Op. at 2-4) [hereinafter "Super. Ct. Op."].
Carter filed a post-sentence motion, which was denied on August 6, 2013. Order, Commonwealth v.
Carter, No. CP-51-CR-0007203-2011 (Pa. Ct. Com.{2019 U.S. Dist. LEXIS 5} PI. Phila. Cnty. Aug. 6,
2013). On August 12, 2013, Carter filed a timely notice of appeal with the Pennsylvania Superior Court
raising issues regarding: (1) the sufficiency and weight of the evidence against him; and (2) the trial
. court's decision to allow the admission of evidence of prior instances in which Petitioner, while
operating a motorized vehicle, had fled from police. Notice of Appeal, Commonwealth v. Carter. No.
CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty. Aug. 12, 2013). On July 15, 2014, the
Superior Court rejected each challenge and affirmed Carter's judgment of sentence. Super. Ct. Op. at

1-3.

lyccases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

On August 4, 2014, Carter filed a pro se petition for collateral relief pursuant to Pennsylvania's Post
Conviction Relief Act ("PCRA"), 42 Pa. Cons. Stat. Ann. §§ 9541-9546. PCRA Pet., Commonwealth v.
Carter. No. CP-51-CR-0007203-2011 {Pa. Ct. Com. PI. Phila. Cnty. Aug. 4, 2014). Stephen Seidel,
Esquire was appointed as Carter’s counsel on March 24, 2015, but he subsequently filed a "no merit"
letter and moved to withdraw pursuant to Commonwealth v. Finley. 379 Pa. Super. 390, 550 A.2d 213
(Pa. Super. Ct. 1988). Opinion at 1, Commonwealth v. Carter. No. CP-51-CR-0007203-2011 (Pa. Ct.
Com. PI. Phila. Cnty. June 20, 2016) [hereinafter "PCRA Trial Ct. Op."]. The PCRA court found
Seidel's{2019 U.S. Dist. LEXIS 6} Finlev letter inadequate, relieved him, and appointed Gary Server,
Esquire to represent Carter. \± at 2. Server also filed a "no merit" letter and moved to withdraw. Id. On
February 22, 2016, the PCRA court issued notice pursuant to Pa. R. Crim. P. 907, advising the parties
that it intended to dismiss Carter's PCRA petition without a hearing. Id. When no response was
forthcoming, the PCRA court dismissed Carter's petition as meritless on March 24, 2016. id.
Carter filed a timely appeal with the Pennsylvania Superior Court on April 8, 2016. See Docket at 22,
No. CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty.). On appeal, Carter argued that his trial
counsel was ineffective in failing to: (1) object to the autopsy report as the medical examiner who
conducted the autopsy did not testify; and (2) request that the jury be instructed on the lesser included
offense of involuntary manslaughter. Notice of Appeal, Commonwealth v. Carter,
CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty. Apr. 8, 2016). The Superior Court determined
that both claims were without merit and affirmed the dismissal of Carter's PCRA petition on May 16,
2017. Commonwealth v. Carter. 170 A.3d 1220, 2017 WL 2130286, at *2-6 (Pa. Super. Ct. May 16,
2017) [hereinafter "PCRA Super. Ct. Op."]. Carter filed a petition for allowance of appeal with{2019
U.S. Djst. LEXIS 7} the Pennsylvania Supreme Court, which was denied on December 20, 2017.
Commonwealth v. Carter. 644 Pa. 368, 176 A.3d 851 (Pa. Dec. 20, 2017) (table).
Carter filed a pro se habeas corpus petition in this Court on May 21, 2018.1 Carter seeks habeas
relief on the following grounds: (1) the trial court denied him a fair trial when it admitted evidence of
prior bad acts; (2) the evidence was insufficient to support a guilty verdict as to third-degree murder
and aggravated assault; (3) trial counsel was ineffective in failing to object to the autopsy report
introduced at trial where the coroner who performed the autopsy did not testify as to the report; (4) trial
counsel was ineffective in failing to communicate with him as to the advantages and disadvantages of
the plea deal before he rejected it; and (5) trial counsel was ineffective in failing to request that the jury
be instructed on the lesser included offense of involuntary manslaughter. Pet. at 5-14. As discussed
below, none of these claims warrant habeas relief.
II. APPLICABLE LEGAL STANDARDS
A. Standard for Issuance of a Writ of Habeas Corpus
Congress, by its enactment of the Antiterrorism and Effective Death Penalty Act of 1996 ("AEDPA"),
significantly limited the federal courts' power to grant a{2019 U.S. Dist. LEXIS 8} writ of habeas
corpus. Where the claims presented in a federal habeas petition were adjudicated on the merits in the
state courts, a federal court shall not grant habeas relief unless the adjudication:
1. Resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
2. Resulted in a decision that was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.28 U.S.C. § 2254(d).
The United States Supreme Court has made clear that a writ may issue under the "contrary to" clause
of § 2254(d)(1) only if the "state court applies a rule different from the governing law set forth in

lyccases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

[United States Supreme Court] cases, or if [the state court] decides a case differently than [the United
States Supreme Court has] done on a set of materially indistinguishable facts." Bell v. Cone. 535 U.S.
685, 694, 122 S. Ct. 1843, 152 L. Ed. 2d 914 (2002). A writ may issue under the "unreasonable
application" clause only where there has been a correct identification of a legal principle from the
Supreme Court, but the state court "unreasonably applies it to the facts of the particular case." Id. This
requires a petitioner to demonstrate{2019 U.S. Dist. LEXIS 9} that the state court's analysis was
"objectively unreasonable." Woodford v. Visciotti. 537 U.S. 19, 27, 123 S. Ct. 357, 154 L. Ed. 2d 279
(2002).
State court factual determinations are also given considerable deference under the AEDPA. Palmer v.
Hendricks. 592 F.3d 386, 391-92 (3d Cir. 2010). A petitioner must establish that the state court’s .
adjudication of the claim "resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding." 28 U.S.C. § 2254(d)(2).
B. Exhaustion and Procedural Default
"[A] federal habeas court may not grant a petition for a writ of habeas corpus ... unless the petitioner
has first exhausted the remedies available in the state courts." Lambert v, Blackwell. 134 F.3d 506,
513 (3d Cir. 1997) (citing 28 U.S.C. § 2254(b)(1)(A)). The exhaustion requirement mandates that the
claim "have been 'fairly presented’ to the state courts." Bronshtein v. Horn. 404 F.3d 700, 725 (3d Cir.
2005) (quoting Picard v. Connor. 404 U.S. 270, 275, 92 S. Ct. 509, 30 L. Ed. 2d 438 (1971)). Fair
presentation requires that a petitioner have pursued his or her claim "through one 'complete round of
the State’s established appellate review process.'" Woodford v. Nqq. 548 U.S. 81, 92, 126 S. Ct. 2378,
165 L. Ed. 2d 368 (2006) (quoting O'Sullivan v. Boerckel. 526 U.S. 838, 845, 119 S. Ct. 1728, 144 L.
Ed. 2d 1 (1999)). The procedural default barrier, in the context of habeas corpus, also precludes
federal courts from reviewing a state petitioner’s habeas claims if the state court decision is based on
a violation of state procedural law that is independent of the federal question and is adequate to
support the judgment. Coleman v. Thompson. 501 U.S. 722, 729, 111 S. Ct. 2546, 115 L. Ed. 2d 640
(1991){2019 u.S. Dist. LEXIS 10}. ”[l]f [a] petitioner failed to exhaust state remedies and the court to
which the petitioner would be required to present his [or her] claims in order to meet the exhaustion
requirement would now find the claims procedurally barred .. . there is a procedural default for
purposes of federal habeas . ..." Id at 735 n. 1; McCandless v. Vauahn. 172 F.3d 255, 260 (3d Cir.
1999).
To survive procedural default in the federal courts, a petitioner must either "demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or demonstrate that
failure to consider the claims will result in a fundamental miscarriaqe of justice." Coleman. 501 U.S. at
750.
C. Ineffective Assistance of Counsel
In Strickland v. Washington. 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), the United
States Supreme Court set forth the standard for claims of ineffective assistance of counsel in violation
of the Sixth Amendment. Counsel is presumed to have acted effectively unless the petitioner
demonstrates both that "counsel's representation fell below an objective standard of reasonableness"
and that there was "a reasonable probability that, but for counsel's unprofessional errors, the result of
the proceeding would have been different." 466 U.S. at 686-88, 693-94.
To satisfy the reasonable performance prong of the analysis, a petitioner must show "'that counsel
made errors so{2019 U.S. Dist. LEXIS 11} serious that counsel was not functioning as the 'counsel'
guaranteed the defendant by the Sixth Amendment.'" Harrington v. Richter. 562 U.S. 86, 104, 131 S.
Ct. 770, 178 L. Ed. 2d 624 (2011) (quoting Strickland. 466 U.S. at 687). In evaluating counsel's

lyccases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

performance, the reviewing court "must apply a 'strong presumption' that counsel's representation was
within the 'wide range’ of reasonable professional assistance" and that there are "'countless ways to
provide effective assistance in any given case. Even the best criminal defense attorneys would not
defend a particular client in the same way.'" id. at 104, 106 (quoting Strickland. 466 U.S. at 689). The
reviewing court must "'reconstruct the circumstances of counsel's challenged conduct' and 'evaluate
the conduct from counsel's perspective at the time.1" id. at 107 (quoting Strickland. 466 U.S. at 689).
"[I]t is difficult to establish ineffective assistance when counsel's overall performance indicates active
and capable advocacy." id. at 111.
To satisfy the prejudice prong of the analysis, a petitioner must demonstrate that counsel's errors
were '"so serious as to deprive [petitioner] of a fair trial, a trial whose result is reliable."' jd. at 104
(quoting Strickland. 466 U.S. at 687). Thus, a petitioner must show "'a reasonable probability that, but
for counsel's unprofessional errors, the result of the proceeding would have been different. A
reasonable probability is a probability{2019 U.S. Dist. LEXIS 12} sufficient to undermine confidence in
the outcome.'" IcL (quoting Strickland. 466 U.S. at 694). This determination must be made in light of
"the totality of the evidence before the judge or jury." Strickland. 466 U.S. at 695.
III. DISCUSSION
A. Carter's Claim that the Trial Court Erred in Admitting Evidence of His Prior Bad Acts and
thus Denied Him a Fair Trial is Non-Coanizable. Procedurallv Defaulted, and Meritless .
Carter argues that the trial court violated his due process rights under the Fourteenth Amendment in
admitting evidence of his prior bad acts, thus denying him a fair trial.2 Pet. at 9. Specifically, the trial
court allowed the prosecution to admit evidence showing that Carter fled from the police in a
motorized vehicle on numerous previous occasions. Transcript of Record at 203-19, Commonwealth
v. Carter. No. CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty. Feb. 11, 2013) [hereinafter ‘
"Feb. 11 Tr."].
Generally, claims alleging state court error in the admission of evidence are not cognizable in a
federal habeas proceeding. See Keller v. Larkins. 251 F.3d 408, 416 n.2 (3d Cir. 2001) ("A federal
habeas court, however, cannot decide whether the evidence in question was properly allowed under
the state law of evidence."). Rather, "[a] federal habeas court is limited to deciding whether the
admission{2019 U.S. Dist. LEXIS 13} of the evidence rose to the level of a due process violation." Id.
"Accordingly, a reviewing court must examine the relative probative and prejudicial value of evidence
to determine whether its admission violated defendant's right to a fair trial." Lesko v. Owens. 881 F.2d
44, 51 (3d Cir. 1989). To the extent Carter alleges a state evidentiary error, rather than a due process
violation, his claim is non-cognizable. See Estelle v. McGuire. 502 U.S. 62, 67-68, 112 S. Ct. 475, 116
L. Ed. 2d 385(1991).
Insofar as Carter raises a federal due process claim based on a state evidentiary error, his claim is
procedurally defaulted. To exhaust a claim, a petitioner must "fairly present[]" the claim to the state
courts. Bronshtein, 404 F.3d at 725 (quoting Picard. 404 U.S. at 275). This means that a petitioner
must "present a federal claim's factual and legal substance to the state courts in a manner that puts
them on notice that a federal claim is being asserted." Keller. 251 F.3d at 413 (quoting McCandless,
172 F.3d at 262). A mere "passing reference" is insufficient for exhaustion purposes, jd at 414; Laird
v. Wetzel. No. 14-1916, 2016 U.S. Dist. LEXIS 110545, 2016 WL 4417528, at *3 (E.D. Pa. Aug. 18,
2016). "In Pennsylvania, the fair presentation requirement means that a petitioner must bring the claim
to the Pennsylvania Superior Court." Johnson v. Kerestes. No. 13-3574, 2014 U.S. Dist. LEXIS 38963,
2014 WL 1225682, at *3 (E.D. Pa. Mar. 25, 2014); see also Washington v. Pennsylvania. No.
10-7103, 2010 U.S. Dist. LEXIS 140961, 2010 WL 5678670, at *3 & ri.8(E.D. Pa. Dec. 20, 2010).
Applied to the context of Carter’s case, these requirements mean that if Carter "wishes to claim that

lyccases

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

an evidentiary ruling at a state court trial{2019 U.S. Dist. LEXIS 14} denied him the due process of
law guaranteed by the Fourteenth Amendment, he must [have done] so, not only in federal court, but
in state court." Duncan v. Henrv. 513 U.S. 364, 366, 115 S. Ct. 887, 130 L. Ed. 2d 865 (1995); see
also Curry v. Brittain. No. 17-4842, 2018 U.S. Dist. LEXIS 108323, 2018 WL 5569418, at *2 (E.D. Pa.
June 26, 2018), report and recommendation adopted, No. 17-4842, 2018 U.S. Dist. LEXIS 184307,
2018 WL 5454290 (E.D. Pa. Oct. 29, 2018).
On appeal from his judgment of sentence, Carter claimed that "[t]he Court erred in allowing the
Commonwealth to introduce evidence that Appellant had previously operated dirt bikes/off road
vehicles and a motor vehicle and that on prior occasions connected to those incidents had fled from
police as evidence to prove Appellant’s state of mind and absence of mistake/accident regarding his
flight in this case as well as contributing to the quantum of evidence presented by the Commonwealth
with regard to intent." Concise Statement of Errors Complained of on Appeal Filed Pursuant to Pa. R.
App. P. 1925(b) at TT 3, Commonwealth v. Carter. No. CP-51-CR-0007203-2011 (Pa. Ct. Com. PI.
Phila. Cnty. Oct. 9, 2013). The trial court rejected this argument, stating that "the evidence was
properly admissible under [Pennsylvania] Rule [of Evidence] 404(b)." Trial Ct. Op. at 7. On direct
appeal to the Pennsylvania Superior Court, Carter raised much the same claim, again in terms of an
evidentiary error, arguing that ”[t]he [Trial Court] err[ed] in allowing{2019 U.S. Dist. LEXIS 15} the
Commonwealth to introduce evidence that Appellant had previously operated motor vehicles, dirt
bikes, etc. on prior [occasions] and that on those prior [occasions] had fled from the police as
evidence of lack of mistake and state of mind." Super. Ct. Op. at 4 (quoting Br. for Appellant at 5,
Commonwealth v. Carter. No. 2373 EDA 2013 (Pa. Super. Ct. Feb. 19, 2014)). The Superior Court
too rejected this argument, finding that under Rule 404(b), "the probative value of the evidence at
issue outweighed any prejudice to Appellant and thus the trial court did not abuse its discretion in
admitting it." Id. at 13.
Carter has thus failed to raise a federal due process claim in the state courts. Nor has he argued that
the Superior Court misunderstood his argument regarding the admissibility of evidence surrounding
his prior bad acts. Pet. at 9-10. Accordingly, without any reference to federal law, the Constitution, or
due process, Carter's direct appeal based on state law "did not give the state courts 'fair notice' that
he was asserting a federal constitutional claim rather than a claim that the trial court violated state
rules of evidence." Keller. 251 F.3d at 414. Moreover, because the PCRA requires that any
post-conviction petition,{2019 U.S. Dist LEXIS 16} including second or subsequent petitions, be filed
within one year of the date the judgment of sentence becomes final, 42 Pa. Cons. Stat. § 9545(b), and
Carter does not assert that his due process claim falls within any statutory exceptions to that rule, a
Pennsylvania court would find any attempt to raise the claim now through a new PCRA petition to be
time-barred. Therefore, the claim is procedurally defaulted and cannot be a ground for habeas relief.
Coleman. 501 U.S. at 729; McCandless. 172 F.3d at 260.
Even if this Court were able to consider Carter's due process claim on the merits, the argument would
be unavailing. Carter argues that the probative value of the evidence of his prior bad acts was
outweighed by its prejudicial impact on the jury, leading to a violation of due process. Pet. at 9-10. The
trial court rejected this argument, finding not only that the evidence was admissible under Pa. R. Evid.
404(b), but also that it was highly probative that Carter acted with recklessness and, therefore, had the
sufficient mens rea of malice for aggravated assault. Trial Ct. Op. at 5-7. During the pretrial hearing
and at trial, the trial judge explained that evidence of Carter's prior bad acts was not only relevant, but
essential in determining whether Carter had the requisite{2019 U.S. Dist. LEXIS 17} malice to
establish the crime of third-degree murder, and thus had probative value that outweighed any potential
prejudice.3 Transcript of Record at 23-24, Commonwealth v. Carter. No. CP-51-CR-0007203-2011
(Pa. Ct. Com. PI. Phila. Cnty. Feb. 8, 2013) [hereinafter "Feb. 8 Tr."]; Feb. 11 Tr. at 29-32; Super. Ct.

lyccases

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Op. at 8-10. The trial judge is given considerable deference in his or her evidentiary determinations,
and this Court only reviews such determinations for federal due process violations. Keller. 251 F.3d at
416 n.2. "[I]n order to show that an evidentiary error of this type rose to the level of a due process
violation," Carter must contend "that it was of such magnitude as to undermine the fundamental fair
ness [sic] of the entire trial." Id at 413 (citing McCandless. 172 F.3d at 262; Lesko. 881 F.2d at
51-52). Here, the admittance of the evidence does not rise to such a constitutional violation; Carter's
prior bad acts were relevant to show both his indifference to human life, an element of the crime of
third-degree murder, as well as intent, which helped to establish the requisite mens rea for Carter's
convictions. See 18 Pa. Cons. Stat. § 2502(c); id. § 2702(a). Therefore, without a showing that this
evidence undermined the fundamental fairness of his trial, Carter is not entitled to habeas relief{2019
U.S. Dist. LEXIS 18} on this claim.
B. Carter's Claim that the Evidence Did Not Support his Convictions is Meritless
Carter next contends that the evidence was insufficient to support his conviction for both third-degree
murder and aggravated assault. Pet. at 10. The United States Supreme Court explained the standard
of review for challenges to the sufficiency of the evidence on habeas review in Jackson v. Virginia as
follows:
[T]he critical inquiry on review of the sufficiency of the evidence to support a criminal conviction . .
. does not require a court to ask itself whether it believes that the evidence at the trial established
guilt beyond a reasonable doubt.... Instead, the relevant question is whether, after reviewing the
evidence in the light most favorable to the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt.443 U.S. 307, 318-19, 99 S. Ct.
2781, 61 L. Ed. 2d 560 (1979) (citations omitted). The AEDPA imposes an additional layer of
deference onto the preexisting sufficiency inquiry. Under the statute, habeas relief may be granted
for insufficiency of the evidence only if the state courts unreasonably applied the "no rational trier
of fact standard" under Jackson or the state equivalent{2019 U.S. Dist. LEXIS 19} thereof.4 28
U.S.C. § 2254(d); Jackson. 443 U.S. at 319.
1. Carter's Claim that the Evidence did not Support his Conviction for Aggravated Assault is
Procedurallv Defaulted and Substantively Meritless
Here, the Pennsylvania Superior Court dismissed Carter's insufficiency claim regarding his conviction
for aggravated assault, pointing out that under Pennsylvania law, because Carter did not raise such a
challenge in his Rule 1925(b) statement and did not make an effort to excuse the default, it was
waived. Super. Ct. Op. at 6 (citing Pa. R. App. P. 302(a)). Pursuant to Pa. R. App. P. 302(a), "issues
not presented in a properly-filed Rule 1925(b) statement" in the lower court are waived. Griggs v.
DiGuglielmo. No. 06-1512, 2007 U.S. Dist. LEXIS 48542, 2007 WL 2007971, at *7 (E.D. Pa. July 3,
2007). This rule is consistently applied and Pennsylvania courts decline to consider on appeal
arguments not explicitly raised in a Rule 1925(b) statement. See, e.o.. Burris v. Delbaso. No. 17-2161,
2018 U.S. Dist. LEXIS 149228, 2018 WL 4905373, at *7 (E.D. Pa. Aug. 30, 2018) (citing
Commonwealth v. Burris. No. CP-51-CR-0000712-2008 (Pa. Ct. Com. PI. Phila. Cnty. June 30, 2015);
Commonwealth v. Burris. No. 976 EDA 2009 (Pa. Super. Ct. June 8, 2010)) (affirming the state courts’
holdings that an argument first raised on appeal from the denial of petitioner's PCRA petition and not
contained within his or her Rule 1925(b) statement is waived and consequently, could not serve as the
basis for habeas relief), {2019 U.S. Dist. LEXIS 20)report and recommendation adopted sub nom.
Burris v. Delbaso. No. CV 17-2161, 2018 U.S. Dist. LEXIS 173357, 2018 WL 4899407 (E.D. Pa. Oct.
9. 2018), certificate of appealability denied sub nom. Burris v. Superintendent Mahanov SCI. No. CV
18-3422, 2019 WL 1977373 (3d Cir. Mar. 28, 2019). Therefore, Rule 302(a) qualifies as an adequate
procedural ground because it is "firmly established and regularly followed." See Thomas v. Sec.. Pa.

lyccases

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Dep'tof Corr.. 495 F. App'x 200, 205-06 (3d Cir. 2012); see also Harris v. Kerestes. No. 11 -3093,
2014 U.S. Dist. LEXIS 173984, 2014 WL 7232358, at *15 (E.D. Pa. Dec. 17, 2014). Accordingly, the
reliance of the state courts on such an independent and adequate state-law ground renders Carter’s
claim procedurally defaulted for purposes of federal habeas relief.5 See, e.q.. Coleman. 501 U.S. at
729; Thomas. 495 F. App'x at 205-06.
2. Carter’s Claim that the Evidence did not Support his Conviction for Third-Degree Murder is
Meritless
Carter did raise his insufficiency claim regarding his conviction for third-degree murder in his Rule
1925(b) statement so that it is not procedurally defaulted; however, his challenge does not provide a
basis for habeas relief. The Superior Court addressed Carter's insufficiency claim regarding his
conviction for third-degree murder on its merits, finding that the evidence presented at trial was
sufficient to support Carter's conviction for third-degree murder, which requires that the killing be
performed with the mens rea of malice under Pennsylvania law. 18 Pa. Cons. Stat. § 2502(c); Super.
Ct. Op. at 8-9. In making its finding, the Superior{2019 U.S. Dist. LEXIS 21} Court relied on the
following evidence:
Officer Rapone testified that [Carter], before running the red light and causing the accident that
killed Mr. Seph[e]s and injured four other people, repeatedly accelerated and ran at least two stop
signs while fleeing the police in a stolen vehicle. Officer Rapone also testified that at no point did
he see [Carter] brake. Another officer who witnessed the chase, Officer John Krewer, testified that
[Carter] was travelling at a speed of approximately 75 to 80 miles per hour through the residential
neighborhood.
In addition, the [Pa. R. Evid.] 404(b) evidence [of prior bad acts] demonstrated that [Carter] had,
on three prior occasions, driven a vehicle erratically and then fled from police. Two of these
incidents resulted in [Carter] crashing the vehicle that he was driving. [T]his was compelling
evidence that [Carter] on the day of the incident here at issue, acted with the malice necessary for
third-degree murder.Super. Ct. Op. at 8 (quoting Trial Ct. Op. at 9-10). Based upon the foregoing,
the evidence clearly demonstrated that Carter was indeed the one driving the stolen Acura and
established that he was driving recklessly before the accident.{2019 U.S. Dist. LEXIS 22} jd.
Such reckless behavior supported a finding that Carter had the requisite malice to establish the
crime of third-degree murder. A rational trier of fact easily could have concluded beyond a
reasonable doubt that Carter was guilty of the crime charged. See Riggs. 63 A.2d at 784-85. The
Superior Court's determination that the evidence was sufficient to support Carter's conviction was
not contrary to, nor an unreasonable application of Jackson, see 28 U.S.C. § 2254(d), and Carter
is, therefore, not entitled to habeas relief on this claim.
C. Carter's Claim that Trial Counsel was Ineffective in Failing to Object to Dr. Rosen's
Testimony Regarding the Autopsy Report is Meritless
In his petition, Carter appears to argue that his counsel was ineffective in failing to object to the
admission of the autopsy report. Pet. at 10. However, while the autopsy report was admitted into
evidence, it was not presented at any point to the jury. PCRA Trial Ct. Op. at 9-10. Thus, the
substance of Carter's claim has more to do with his counsel's alleged ineffectiveness in failing to
object to Dr. Rosen's testimony on the ground that the autopsy report was the work of Dr. Hunt and
not of Dr. Rosen.6
At the time of trial, Dr. Allison Hunt,{2019 U.S. Dist. LEXIS 23} the forensic pathologist who
conducted the victim's autopsy and authored the report in question, no longer worked at the
Philadelphia Medical Examiner's Office. Transcript of Record at 55, Commonwealth v. Carter. No.

1yccases

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

CP-51 -CR-0007203-2011 {Pa. Ct. Com. PI. Phila. Cnty. Feb. 13, 2013) [hereinafter "Feb. 13 Tr."].
Consequently, Dr. Aaron Rosen, another forensic pathologist, testified at trial instead. Dr. Rosen
testified that after reviewing all the evidence, including Dr. Hunt's report, he considered Mr. Sephes'
death to be an accident caused by multiple blunt trauma impacts. Id. Carter maintains that because
his counsel did not object to Dr. Rosen's testimony, his counsel was ineffective under Strickland. Pet.
at. 12. This claim lacks merit.
As the PCRA court noted, "[ujnder Pennsylvania law, a medical examiner who did not perform the
autopsy at issue in the case may still testify as to the cause and manner of death provided that the
testifying expert is qualified and sufficiently informed so as to be able to render his or her own
opinion." PCRA Trial Ct. Op. at 9-10 (citing Commonwealth v. Buford. 2014 PA Super 224, 101 A.3d
1182, 1198 (Pa. Super. Ct. 2014)). Dr. Rosen was one such qualified expert, Feb. 13 Tr. at 52, and
thus, his testimony was permissible. Despite{2019 U.S. Dist. LEXIS 24} Carter's claim that Dr.
Rosen's testimony stemmed from Dr. Hunt’s autopsy report, the report was never shown to the jurors,
nor were any of Dr. Hunt's opinions or conclusions shared with them. jd. at 10. Additionally, Dr. Rosen
reached his own conclusions surrounding the death of Mr. Sephes. Feb. 13 Tr. at 55. Moreover,
multiple witnesses testified that Carter had been driving at high speeds until he ran a red light and
crashed his car. Feb. 11 Tr. at 240-48; Transcript of Record at 14-29, 74-76, 132-53, 177, 181-94,;
Commonwealth v. Carter. No. CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty. Feb. 12, 2013)
[hereinafter "Feb. 12 Tr."]. Matthew Gavula, a paramedic responding to the collision, testified to
pronouncing Mr. Sephes dead at the scene. Feb. 11 Tr. at 247. Taken together, this evidence
contradicts Carter's claim that Dr. Rosen's testimony was "essential" in establishing the cause and
manner of Mr. Sephes' death and a "key ingredient in the Commonwealth establishing its
case-in-chief." Pet. at 12. Given the eyewitness accounts and the circumstances surrounding the
crash, it cannot be said that the jury needed Dr. Rosen’s testimony to find causation between Carter's
reckless driving{2019 U.S. Dist. LEXIS 25} and Mr. Sephes' death. Commonwealth v. Green. 195
A.3d 1038, 2018 WL 4102963, at *5-6 (Pa. Super. Ct. 2018) (finding that petitioner could not prevail
on a similar ineffectiveness of counsel claim because he failed to establish prejudice where additional
evidence outside the testimony made it clear that the autopsy report did not independently influence
the jury's decision to such an extent that there was a reasonable probability that the verdict would
have been different without it).
Thus, trial counsel cannot be found ineffective because objecting to the testimony of Dr. Rosen would
have been futile. Furthermore, even if counsel's representation did somehow fall below an objectively
reasonable standard in not objecting to Dr. Rosen's testimony, there is no reasonable probability that
but for that error, the result of the case would have been different given the aforementioned evidence.
Accordingly, Carter has not met his burden under the two-pronged test of Strickland, and, therefore,
has not established that he lacked effective assistance of counsel.
D- Carter's Claim that Trial Counsel was Ineffective in Failing to Sufficiently Explain to Him the
Plea Offer is Defaulted and Meritless
Carter further asserts that trial counsel was ineffective in failing to adequately{2019 U.S. Dist. LEXIS
26} explain the plea deal offering him 15 to 30 years' imprisonment for all charges, which he
subsequently rejected. Following his trial, Carter received a sentence of 25 to 50 years'
imprisonment-a more severe punishment that he claims is proof of the ineffectiveness of his counsel.
This claim is both procedural^ defaulted and lacking in merit.
Carter admits that this claim is procedural^ defaulted having not raised it in state court. Pet. at 14. He
purports to rely on Martinez v. Rvan. 566 U.S. 1, 132 S. Ct. 1309, 182 L. Ed. 2d 272 (2012) to show
cause and actual prejudice in his attempt to excuse this procedural default. In Martinez, the United

1yccases

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

States Supreme Court noted that when a state requires a petitioner to raise an ineffective assistance
claim on post-conviction review, rather than on direct appeal, a post-conviction relief hearing is the
first opportunity the petitioner has to have his or her ineffective assistance claim heard.7 566 U.S. at
9-13. The Court, therefore, concluded that a habeas petitioner may establish cause and prejudice to
allow a court to hear a defaulted ineffective assistance claim by showing that his or her post-conviction
relief counsel was ineffective in failing to properly raise that claim in the post-conviction relief
proceeding. Id. at 13-14. To pursue{2019 U.S. Dist. LEXIS 27} such a claim, a petitioner must show
that his or her underlying ineffective assistance of counsel claim "is a substantial one, which is to say
that the prisoner must demonstrate that the claim has some merit" as defined by reference to the
standard applicable to determining whether to grant certificates of appealability. Id. at 14 (citing
Miller-El v. Cockrell. 537 U.S. 322, 327, 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003)); see also
Valentin-Morales v. Moonev. No. 13-3271, 2015 U.S. Dist. LEXIS 16958, 2015 WL 617316, at *4 (E.D.
Pa. Feb. 11,2015) (Miller-El standard applies to Martinez merit analysis). A claim meets that standard
if "jurists of reason could disagree with the [state] court's resolution of [petitioner's] constitutional
claims or [if] jurists could conclude the issues presented are adequate to deserve encouragement to
proceed further." Miller-El. 537 U.S. at 327. Carter cannot meet Martinez's requirements because his
claim that trial counsel was ineffective in not sufficiently explaining to him the plea deal is baseless.
Here, at a pretrial motion hearing on February 8, 2013, the record reflects that Carter's trial counsel
and the prosecutor had discussed the plea offer and that trial counsel wished to speak with Carter
again to discuss the plea offer after one of the victims, Mr. Leslie Downer, recently died, potentially
exposing Carter to another murder charge. Feb. 8 Tr. at 5. The court allowed trial{2019 U.S. Dist.
LEXIS 28} counsel another opportunity to discuss the offer with Carter. ]d. at 9. After the discussion
between trial counsel and Carter, the trial judge explained to Carter the charges against him,
convictions for which could result in a sentence of 20 years for each aggravated assault charge in
addition to seven years for homicide by vehicle and four years for third-degree murder. Id. at 13. In
addition, the trial judge explained that the offer conveyed by the Commonwealth for Carter to plead
guilty would result in a 15 to 30-year sentence in exchange for resolving all charges against him. Id. at
11-12. The trial judge explicitly asked: "Just want to be clear that the offer has been communicated to
you. Has it been?" Id, at 13. Carter answered in the affirmative. Id, When further questioned whether
he had "a full opportunity to talk about your options with your lawyer," Carter replied "Not really," but
failed to specifically point out his counsel's failure in explaining the deal to him, instead complaining
generally that he was not receiving the best representation and inquiring about a motion which was
determined to be a matter better addressed during cross-examination of a Commonwealth witness
during the trial,
at 13-18. The trial judge{2019 U.S. Dist. LEXIS 29} asked Carter: "We'll pick a jury
Monday, have 12 of your peers decide how this case will come out. That's what you want, right?"
Carter responded: "Yes." Id, at 18-19. Trial counsel requested that the offer remain open over the
weekend despite Carter's answer. Id, at 38. Before the trial began, trial counsel once more appeared
to discuss the plea offer with Carter. Feb. 11 Tr. at 39. On Monday February 11, 2013, Carter pled not
guilty to all charges. Id, at 197-99.
In order for a writ to be issued in such circumstances:
a defendant must show that but for the ineffective advice of counsel there is a reasonable
probability that the plea offer would have been presented to the court (/.e., that the defendant
would have accepted the plea and the prosecution would not have withdrawn it in light of
intervening circumstances), that the court would have accepted its terms, and that the conviction
or sentence, or both, under the offer’s terms would have been less severe than under the
judgment and sentence that in fact were imposed.Laflerv. Cooper. 566 U.S. 156, 164,132 S. Ct.
1376, 182 L. Ed. 2d 398 (2012).

lyccases

10

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

On the aforementioned evidence, there is no merit to Carter's claim that his trial counsel was
ineffective. The record reflects trial counsel discussing with Carter the plea offer on numerous
occasions,{2019 U.S. Dist. LEXIS 30) including after Mr. Downer died, indicating that trial counsel
was both aware of the impact a victim's death might have on the length of a potential sentence and
explained the change in circumstances to Carter. In addition, Carter has asserted no more than
general allegations of counsel's ineffectiveness rather than specific deficiencies with counsel's
explanation of the deal, which cannot entitle him to habeas relief. See Rule 2(c)(2), Rules Governing
Section 2254 Cases in the United States District Courts (explaining that a petitioner must state the
facts that surround the purported grounds for relief). At no point did Carter claim that he did not
understand the offer, answering affirmatively when asked whether the offer had been communicated
to him. Feb. 8 Tr. at 13. Furthermore, there is evidence that Carter may have changed his mind about
whether to accept the offer or not. On February 8, 2013, Carter stated that he wished to go to trial, Id
at 18-19; on February 11, 2013 trial counsel expressed that Carter wished to accept the
Commonwealth's offer, Feb. 11 Tr. at 191^92; and, later that same day, trial counsel indicated that
Carter changed his mind again before he finally entered a not guilty plea; id. at 194. The fact that
Carter changed his mind about the offer is evidence that{2019 U.S. Dist. LEXIS 31} he understood
the repercussions of his choice. Carter's view after the fact that he may have pled unwisely cannot
establish ineffective assistance of counsel.
In this matter, Carter has not met his burden under Strickland and, thus, has not established that he
lacked effective trial counsel. Without ineffective trial counsel, the procedural default of this claim
cannot be excused under Martinez.
E. Carter's Claim that Trial Counsel Was Ineffective in Failing to Request a Jury Instruction of
Involuntary Manslaughter Lacks Merit
Carter contends that trial counsel was ineffective in failing to request a jury instruction on involuntary
manslaughter, thus depriving him of a chance of being convicted for that lesser crime, which would
have brought along with it a lesser sentence. Pet. at 16. Instead, the jury was instructed on homicide
by vehicle. Feb. 13 Tr. at 163-65. This Claim does not entitle Carter to habeas relief.
Once again, counsel cannot be considered ineffective under Strickland for failing to assert a meritless
claim. Werts v. Vaughn. 228 F.3d 178, 203 (3d Cir. 2000). The Pennsylvania Superior Court found .
this claim for a lesser charge to be presented to the jury to be baseless, noting that there was not, as
Carter has stipulated,{2019 U.S. Dist. LEXIS 32} any evidence that could support a conviction of
involuntary manslaughter but not homicide by vehicle:
In order to establish that [Carter] was guilty of homicide by vehicle, the Commonwealth was
required to prove that [he] caused the death of [the victim] by acting recklessly or with gross
negligence, while violating any law or ordinance applying to the operation of a motor vehicle. 75
Pa. C.S. § 3732; Commonwealth v, Pedota. 2013 PA Super 27, 64 A.3d 634, 636 (Pa. Super. [Ct.]
2013). In order to establish that Appellant was guilty of involuntary manslaughter, the
Commonwealth would have to prove that he caused the death of [the victim] by doing an act in a
reckless or grossly negligent manner. 18 Pa. C.S. § 2504(a); Pedota. 64 A.3d at 636. Therefore,
homicide by vehicle includes all the elements of involuntary manslaughter, plus the additional
requirement that the death was caused while violating the [Vehicle Code], Accordingly, trial
counsel would have been entitled to request that involuntary manslaughter be submitted to the
jury if a reasonable juror could have found [Carter] guilty of involuntary manslaughter but not guilty
of homicide by vehicle.
The evidence at trial, however, clearly established the contrary. In particular, there was

lyccases

11

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

overwhelming evidence that [Carter's] reckless and grossly negligent{2019 U.S. Dlst. LEXIS 33}
. conduct consisted of multiple violations of the [Vehicle Code],
[Tjhe evidence demonstrated that [Cater] recklessly and with gross negligence caused [the
victim's] death by driving through a.red light at a high rate of speed, thereby violating the laws
applying to a motor vehicle. Because no reasonable juror could have found [Carter] guilty of
involuntary manslaughter, but not guilty of homicide by vehicle, any request by trial counsel to
submit the involuntary manslaughter charge to the jury would have been rejected.PCRA Super.
Ct. Op. at 3 (quoting PCRA Trial Ct. Op. at 6-7).
Carter offers no evidence that "a reasonable probability existed that, at least, one reasonable juror
would have found him guilty of involuntary manslaughter and not guilty of homicide by vehicle." Pet. at
16. Carter admits that the facts of the case support a conviction for involuntary manslaughter, but
does nothing more than reach a conclusory allegation in his claim that the facts would also not support
a conviction for homicide by vehicle. Id. As the Superior Court pointed out, the only difference between
the two crimes is the element of violating the Vehicle Code. Speeding and running red lights and
stop{2019 U.S. Dist. LEXIS 34} signs amount to such violations in this case. PCRA Super. Ct. Op. at
3 (quoting PCRA Trial Ct. Op. at 6-7). Because Carter has not demonstrated that he did not engage in
these behaviors, he cannot overcome the deference given to the state court's adjudication. Any
request by his trial counsel for a jury instruction on involuntary, manslaughter would, therefore, have
been rejected. See id. Thus, Carter has not shown that his trial counsel was ineffective under
Strickland, and consequently, his claim cannot provide a ground for habeas relief.
IV. CONCLUSION
For the foregoing reasons, I recommend that Carter's habeas petition be denied. Accordingly, I make
the following:
RECOMMENDATION
AND NOW, this 25th day of June, 2019, IT IS RESPECTFULLY RECOMMENDED that the petition for
a writ of habeas corpus be DENIED and DISMISSED. There has been no substantial showing of the
denial of a constitutional right requiring the issuance of a certificate of appealability. The Petitioner
may file objections to this Report and Recommendation. See Local Civ. Rule 72.1. Failure to file timely
objections may constitute a waiver of any appellate rights.
/s/ Marilyn Heffley
MARILYN HEFFLEY
UNITED STATES MAGISTRATE JUDGE
Footnotes

1
Pursuant to the prison mailbox rule, a pro se prisoner's habeas application is deemed filed on the date
he or she delivers it to prison officials for mailing to the district court, not on the date the application
was filed with the court. See Burns v. Morton. 134 F.3d 109, 113 (3d Cir. 1998). As Carter signed his
habeas petition on May 21, 2018, I will use that date as the date his petition was filed. Pet. (Doc. No.
1) at 18.
,2

lyccases

12

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Insofar as Carter argues that the trial court made a decision that was based on an unreasonable
determination of the facts in light of the evidence presented, this claim is without substance. To
succeed on such a claim, Carter must rebut the presumption of correctness ofcthe state court's factual
determinations by clear and convincing evidence. 28 U.S.C. § 2254(e)(1). He has failed to do so,
demonstrating no dispute as to the underlying facts of his claim regarding the admission of evidence
of his prior bad acts. Thus, such an accusation cannot serve as the basis for habeas relief.
3
Moreover, the Superior Court held that the trial court was within its discretion in admitting such
evidence after Carter failed to distinguish his case from that of Commonwealth v. Riggs. 63 A.2d 780,
784-85, 2012 PA Super 187 (Pa. Super. Ct. 2012), which found that evidence of a defendant's prior
acts of fleeing from the police, running a red light, and crashing his car introduced under Rule 404(b)
was compelling proof that the defendant had the requisite malice to establish the crime of aggravated
assault. Super. Ct. Op. at 8-10. The Superior Court also noted that Carter's claim that the jury may
have convicted him based on the allegedly erroneously admitted evidence rather than the facts of the
case was dubious because the jury acquitted him for fleeing and eluding the police in this case,
despite the fact that the evidence in question spoke directly to that charge, id.
4
Pennsylvania's sufficiency standard is the same as the federal constitutional standard. Evans v. Court
of Com. PL 959 F.2d 1227, 1233 (3d Cir. 1992).
5
Even if Carter's claim were to be assessed on its merits, his challenge would still fail. Under
Pennsylvania law, a person is guilty of aggravated assault if he or she causes serious bodily injury to
another "intentionally, knowingly, or recklessly under circumstances manifesting extreme indifference
to the value of human life." 18 Pa. Cons. Stat. § 2702(a)(1). The jury determined that Carter injured
the three victims as a result of the accident he caused while driving recklessly. Transcript of Record at
192-93, Commonwealth v. Carter. No. CP-51-CR-0007203-2011 (Pa. Ct. Com. PI. Phila. Cnty. Feb. .
12, 2013). The same evidence that supports a finding of malice as discussed below regarding the
third-degree murder charge also supports the same finding with respect to the aggravated murder
charge. The evidence, including Carter's conduct and his prior bad acts, clearly demonstrates that.
Carter was reckless and caused such injuries with indifference to the value of human life.

6
To the extent that Carter raises a Confrontation Clause issue rather than an ineffective counsel claim
he is potentially correct in that admission of an autopsy report without accompanying testimony of its
author is a violation of the Confrontation Clause. Commonwealth v. Brown. 185 A.3d 316, 329 (Pa.
2018). Here, however, as in Brown, such an error was harmless because there was no reasonable
possibility that the error may have contributed to the verdict. Commonwealth v. Young. 748 A.2d 166,
193, 561 Pa. 34 (Pa. 1999). Given the strength of the other evidence upon which the jury decided to
convict, this conclusion is not contrary to nor an unreasonable application of clearly established
federal law as determined by the United States Supreme Court. See Delaware v. Van Arsdall. 475
U.S. 673, 684, 106 S. Ct. 1431, 89 L. Ed. 2d 674 (1986) (errors under the Confrontation Clause are
subject to harmless error analysis). Thus, this issue cannot be grounds for habeas relief.
7
In Pennsylvania, ineffective assistance claims cannot be brought on direct appeal. Torres-Rivera v.
Bickell. No. 13-3292, 2014 U.S. Dist. LEXIS 159669, 2014 WL 5843616, at*16(E.D. Pa. Nov. 10,
2014) (citing Commonwealth v. Grant. 572 Pa. 48, 813 A.2d 726, 738 (Pa. 2002)).

lyccases

13

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

!*

Appendix B

A

ROBERT CARTER. Petitioner, v. VINCENT MOONEY, et ai., Respondents.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF PENNSYLVANIA
2020 U.S. Dist. LEXIS 92977
CIVIL ACTION No. 18-2366
May 28, 2020, Decided
_____________
May 28, 2020, Filed
Editorial Information: Subsequent History
Appeal filed, 06/30/2020
Editorial Information: Prior History
Carter v. Mooney, 2019 U.S. Dist. LEXIS 107910 (E.D. Pa., June 25, 2019)
Counsel

{2020 U.S. Dist. LEXIS DROBERT CARTER. Petitioner, Pro se
HUNLOCK CREEK, PA.
For ROBERT CARTER. Petitioner: TODD M. MOSSER, LEAD
ATTORNEY, MOSSER LEGAL, PLLC, PHILADELPHIA, PA.
For VINCENT MOONEY, THE DISTRICT ATTORNEY OF THE
COUNTY OF PHILADELPHIA, THE ATTORNEY GENERAL OF THE STATE OF
PENNSYLVANIA, Respondents: BANAFSHEH AMIRZADEH, PHILADELPHIA DISTRICT
ATTORNEY'S OFFICE, PHILADELPHIA, PA.
Judges: MITCHELL S. GOLDBERG, J.
Opinion
Opinion by:

MITCHELLS. GOLDBERG
Opinion

ORDER
AND NOW, this 28th day of May, 2020, upon consideration of Petitioner Robert Carter's Petition for
Writ of Habeas Corpus (ECF No. 1), Respondents Vincent Mooney, the Attorney General of the State
of Pennsylvania, and the District Attorney of Philadelphia County's^collectively, "Respondents")
"Response in Opposition to Petition for Writ of Habeas Corpus" {ECF No. 18), the Report and
Recommendation of United States Magistrate Judge Marilyn Heffley {ECF No. 19), Petitioner's
"Request for Leave to File Supplemental Petition and Response in Opposition to the Commonwealth's
Response" (ECF No. 20), and Petitioner's "Request for Leave to Supplement and that this Court Treat
his Response filed on 7/17/2019 as an Objection to U.S.M.J. Marilyn Heffley's Report [and]
Recommendation" (ECF{2020 U.S. Dist. LEXIS 2} No. 26), I find the following:
FACTUAL BACKGROUND1
1. On April 19, 2013, Petitioner was convicted by a Philadelphia County jury on multiple counts,
including third-degree murder, homicide by vehicle, causing an accident involving death while not
properly licensed, aggravated assault by vehicle, first-degree aggravated assault, recklessly
endangering another person, and receiving stolen property. These charges arose from an April 5,

lyccases

1

© 2021 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

2011 incident in which Petitioner, driving a stolen vehicle, ran a red light while evading police officers
in pursuit and smashed into another driver. The collision resulted in the death of the passenger in the
vehicle driven by Petitioner, injury to the driver of the other car, and injury to three pedestrians who
were hit during the collision (one of whom later died).
2. On the same date as his conviction, the trial court sentenced Petitioner to an aggregate term of
twenty-five to fifty years' imprisonment.
3. Petitioner filed a post-sentence motion, which was denied on August 6, 2013. Thereafter, he timely
appealed to the Pennsylvania Superior Court, raising issues regarding (1) the sufficiency and weight
of the evidence against him and (2) the trial court’s{2020 U.S. Dist. LEXIS 3} decision to allow the
admission of evidence of prior instances in which Petitioner, while operating a motorized vehicle, had
fled from police. On July 15, 2014, the Superior Court rejected these challenges and affirmed the
judgment of sentence.
4. On August 4, 2014, Petitioner filed a pro se petition pursuant to Pennsylvania's Post-Conviction
Relief Act ("PCRA"), 42 Pa. Cons. Stat. §§ 9541 etseq., setting forth multiple claims of ineffective
assistance of trial counsel. The PCRA court appointed counsel, who subsequently filed a "no merit"
letter and moved to withdraw his representation. The PCRA court relieved the original PCRA counsel
and appointed another attorney to represent Petitioner. That attorney also filed a "no merit" letter and
moved to withdraw.
5. On February 22, 2016, the PCRA court issued notice pursuant to Pennsylvania Rule of Criminal
Procedure 907, advising the parties that it intended to dismiss Petitioner's PCRA petition without a
hearing. On March 24, 2015, when no response was filed, the PCRA court dismissed the petition as
meritless.
6. Petitioner filed a timely appeal to the Pennsylvania Superior Court. On appeal, Petitioner argued
that his trial counsel was ineffective in failing to (1) object{2020 U.S. Dist. LEXIS 4} to the autopsy
report because the medical examiner who conducted the autopsy did not testify and (2) request that
the jury be instructed on involuntary manslaughter as a lesser included offense to homicide by vehicle.
On May 26, 2017, the Superior Court found both claims to be meritless and affirmed the dismissal of
Petitioner's PCRA petition. On December 20, 2017, Petitioner's petition for allowance of appeal with
the Pennsylvania Supreme Court was denied.
7. On June 6, 2018, Petitioner filed a pro se petition for writ of habeas corpus in this Court. He seeks
habeas relief based on the following: (1) the trial court denied him a fair trial when it admitted evidence
of prior bad acts; (2) the evidence was insufficient to support a guilty verdict as to third-degree murder
and aggravated assault; (3) trial counsel was ineffective in failing to object to the autopsy report
introduced at trial where the coroner who performed the autopsy did not testify as to the report; (4) trial
counsel was ineffective in failing to communicate with him as to the advantages and disadvantages of
the plea deal before he rejected it; and (5) trial counsel was ineffective in failing to request that the
jury{2020 U.S. Dist. LEXIS 5} be instructed on involuntary manslaughter as a lesser included offense
of homicide by vehicle.
8. I referred the habeas petition to United States Magistrate Judge Marilyn Heffley for a Report and
Recommendation-("R&R"). Judge Heffley issued an R&R recommending that (1) Petitioner's claim
that the trial court erred in admitting evidence of prior bad acts and thus denied him a fair trial is
non-cognizable, procedurally defaulted, and meritiess; (2) Petitioner's claim that the evidence did not
support his conviction for aggravated assault is procedurally defaulted and meritless and Petitioner's
claim that the evidence did not support his conviction for third-degree murder is meritless; (3)
Petitioner's claim that trial counsel was ineffective in failing to object to testimony regarding the

lyccases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

autopsy report is meritless; (4) Petitioner's claim that trial counsel was ineffective in failing to
sufficiently explain to him the plea offer is procedurally defaulted and meritless; and (5) Petitioner's
claim that trial counsel was ineffective in failing to request a jury instruction of involuntary
manslaughter as a lesser included offense of homicide by vehicle is meritless.
9. On July 10, 2019, Petitioner{2020 U.S. Dist. LEXIS 6} filed a request for leave to file a
supplemental petition and response in opposition to the Commonwealth's response to the petition. On
July 15, 2019, Judge Heffley dismissed that request as moot, informing Petitioner that he may seek to
present any additional arguments in support of his petition to me in the form of objections to the R&R.
10. Over two months later, on September 25, 2019, Petitioner filed a request for leave to supplement
his petition and treat his response "filed on 7/17/2019" as an objection to Judge Heffley's R&R.
11. Upon consideration of this request, I construe the arguments raised in Petitioner's July 10, 2019
as objections to the R&R.2
STANDARD OF REVIEW
12. Under 28 U.S.C. § 636(b)(1)(B), a district court judge may refer a habeas petition to a magistrate
judge for proposed findings of fact and recommendations for disposition. When objections to a report
and recommendation have been filed, the district court must review, de novo, those portions of the
report to which specific objections have been made. 28 U.S.C. § 636(b)(1)(C);, 885 F.2d 1099, 1106
n.3 (3d Cir. 1989). In performing this review, the district court "may accept, reject, or modify, in whole
or in part, the findings or recommendations made by the magistrate judge." 28 U.S.C. § 636(b)(1).
13. Although{2020 U.S. Dist. LEXIS 7} courts must give liberal construction to pro se habeas
petitions, "[o]bjections which merely rehash an argument presented to and considered by a magistrate
judge are not entitled to de novo review." Gray v. Delbiaso. No. 14-4902, 2017 U.S. Dist. LEXIS
101835, 2017 WL 2834361, at *4 (E.D. Pa. June 30, 2017), appeal dismissed No 17-2569, 2017 U.S.
App. LEXIS 28200, 2017 WL 6988717 (3d Cir. 2017); see also Tucker v. Commonwealth. No. 18-201,
2020 U.S. Dist. LEXIS 46568, 2020 WL 1289181, at *1 (E.D. Pa. Mar. 18, 2020). "Where objections
do not respond to the Magistrate's recommendation, but rather restate conclusory statements from
the original petition, the objections should be overruled." Prout v. Giroux. No. 14-3816, 2016 U.S. Dist.
LEXIS 57085, 2016 WL 1720414, at *11 (E.D. Pa. Apr. 29, 2016); see also Luckett v. Folino. No.
09-0378, 2010 U.S. Dist. LEXIS 100055, 2010 WL 3812329, at *1 (M.D. Pa. Aug. 18, 2010) (denying
objections to R&R because "[e]ach of these objections seeks to re-litigate issues already considered
and rejected by [the] Magistrate Judge
")
DISCUSSION
Objections to Recommendation on First and Third Habeas Claims
14. Petitioner's objections to the recommendation on his first and third habeas claims, identified in
Paragraphs 7 and 8 supra, are both verbatim statements of the arguments raised in his petition and
rejected by Judge Heffley in the R&R. (Pet., ECF No. 1, at 9-12; Pet. Objs., ECF No. 20, at 1-3, 8-9.)
These objections seek to re-litigate issues already considered by Judge Heffley and are not entitled to
my de novo review. Even if these objections were subject to my review, I find no clear error in Judge
Heffley's recommendation on these claims.{2020 U.S. Dist. LEXIS 8} Therefore, Petitioner's first and
third objections are overruled.
Objection to Recommendation on Fourth Habeas Claim
15. Petitioner's objection to the recommendation on his fourth habeas claim, identified in Paragraphs
7 and 8 supra, although near-verbatim to the arguments in his petition, responds directly to arguments

1yccases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

relied on by Judge Heffley in the R&R. Petitioner contends that, although it is true that this claim is
procedurally defaulted, it meets the exception to default set forth in Martinez v. Rvan. 566 U.S. 1, 132
S. Ct 1309, 182 L. Ed. 2d 272 (2012), because the underlying ineffective assistance of trial counsel
claim is "substantial" or "has some merit."3 Petitioner argues that the state court record, which
allegedly belies Petitioner's claim that trial counsel did not explain the plea offer, does not reflect what
actually transpired. Petitioner explains that trial counsel never informed him of the chances of winning
at trial or what evidence the Commonwealth would produce to prove its case! He further asserts that
"[t]he evidence in the case against Petitioner was very overwhelming and any chance of him getting
an acquittal was futile.... Had he been aware that he stood no chance at winning this case he would
have accepted the Commonwealth's{2020 U.S. Dist. LEXIS 9} plea-offer." (Pet. Objs., ECF No. 20, at
4.)
16. Judge Heffley concluded that there was no merit to this claim. Judge Heffley's recommendation is
based on the following facts in the state court record:
At a pretrial motion hearing on February 8, 2013, trial counsel specifically requested that the trial
court provide her with an opportunity to speak with Petitioner again regarding the plea offer after a
second victim had died.
After this discussion between trial counsel and Petitioner, the trial judge explained to Petitioner
the charges against him, convictions for which could result in a sentence of 20 years for each
aggravated assault charge in addition to seven years for homicide by vehicle and four years for
third-degree murder.
The trial judge also explained that the plea offer conveyed by the Commonwealth for Petitioner
would result in a 15 to 30-year sentence in exchange for resolving all charges against him.
When asked by the trial judge whether the plea offer had been communicated to him, Petitioner
answered in the affirmative.
The trial judge questioned Petitioner further, asking whether Petitioner had a full opportunity to
talk about his options with his trial{2020 U.S. Dist. LEXIS 10} counsel. Petitioner replied, "Not
really," but, in his explanation of what was meant by this statement, Petitioner failed to point out
deficiencies in what his counsel had explained to him regarding the deal. Instead, he complained
generally about his dissatisfaction with trial counsel's representation. Plaintiff also never claimed
that he did not understand the plea offer.
After Petitioner expressed to the trial judge that he was not receiving the best representation, the
trial judge informed Petitioner that a jury would be selected the Monday after the pretrial hearing to
decide his case. The trial judge explicitly asked Petitioner if that was what he wanted, which
Petitioner answered in the affirmative.
Trial counsel requested that the plea offer remain open over the weekend despite Petitioner's
response, and, before trial began, trial counsel once more appeared to discuss the plea offer with
Petitioner.
Petitioner pled not guilty to all charges on Monday, February 11, 2013.
17. Judge Heffley also points out evidence in the record showing that Petitioner changed his mind
about whether to accept the plea offer. On February 8, 2013, Petitioner said that he wished to go to
trial;{2020 U.S. Dist. LEXIS 11} on February 11, 2013, trial counsel explained that Petitioner wished
to accept the Commonwealth's offer, and later that same day, trial counsel stated that Petitioner had
changed his mind again before Petitioner finally entered a not guilty plea. Judge Heffley concludes
that the fact that Petitioner changed his mind further demonstrates that he understood the

lyccases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

repercussions of his choice and that Petitioner's concern, after the fact, that he may have pled
unwisely cannot establish an ineffective assistance of counsel claim.
18. Petitioner responds that his allegations of ineffective assistance of trial counsel "versus the
allegations of the Commonwealth created 'disputed factual issue' [sic] warranting an evidentiary
hearing." (Pet. Objs., ECF No. 20, at 7.)
19. Ineffective assistance of counsel claims are analyzed under the two-part test set forth in Strickland
v. Washington. 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984), to determine whether a
defendant's constitutional rights have been violated by trial counsel's performance, [d. at 687. First,
"the defendant must show that counsel's performance was deficient," i.e., that it fell below "prevailing
professional norms." ]d. at 687-88. Second, "the defendant must show that the deficient performance
prejudiced the defense," i.e.(2020 U.S. Dist. LEXIS 12} "that counsel's errors were so serious as to
deprive the defendant of a fair trial, a trial whose result is reliable." Id. at 687. To prove an unfair trial,
a defendant "must show that there is a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different." Id. at 694.
20. The standard for assessing counsel's performance under the first prong of Strickland is whether
counsel's representation fell below an objective standard of reasonableness:
Courts must be highly deferential to counsel's reasonable strategic decisions .... Thus, the court
is not engaging in a prophylactic exercise to guarantee each defendant a perfect trial with
optimally proficient counsel, but rather to guarantee each defendant a fair trial, with constitutionally
competent counsel. ... the mere existence of alternative-even preferable or more
effective-strategies does not satisfy the requirements of demonstrating ineffectiveness under
rstricklandl.Enright v. U.S,. 347 F. Supp. 2d 159, 166 (D.N.J. 2004) (internal quotation marks
omitted) (citing Marshall v. Hendricks. 307 F.3d 36, 85 (3d Cir. 2002)).
21. In a recent pair of cases, the Supreme Court held that defense counsel has a duty to
communicate formal plea offers to the defendant and that failure to properly communicate{2020 U.S.
Dist. LEXIS 13} an offer may constitute ineffective assistance of counsel. Missouri v. Frve. 566 U.S.
134, 145, 132 S. Ct. 1399, 182 L. Ed. 2d 379 (2012). In order to effectively assist their clients in the
plea-bargaining process, counsel must provide a criminal defendant "enough information 'to make a
reasonably informed decision whether to accept a plea offer.'" U.S, v. Bui. 795 F.3d 363, 366 (3d Cir.
2015) (quoting Shotts v. Wetzel. 724 F.3d 364, 376 (3d Cir. 2013)). To establish that counsel's
improper communication of a plea offer constitutes ineffective assistance, a defendant must show
that, "but for [counsel's failure,] there is a reasonable probability that the plea offer would have been
presented to the court, that the court would have accepted its terms, and that the conviction or the
sentence, or both, under the offer's terms would have been less severe than under the judgment and
sentence that in fact were imposed." Lafler v. Cooper. 566 U.S. 156, 164, 132 S. Ct. 1376, 182 L. Ed.
2d 398 (2012),
22. The United States Court of Appeals for the Third Circuit has stated that "a habeas petitioner states
a claim under the Sixth Amendment when he contends that the advice he received from counsel
regarding a plea bargain was so insufficient or incorrect as to undermine his ability to make an
intelligent decision whether to accept the plea offer." Enright. 347 F. Supp. 2d at 164 (citing U.S. v.Day, 969 F.2d 39, 43 (3d Cir. 1992)).
23. The Third Circuit has not defined a precise standard of performance of defense counsel in the
plea-bargaining{2020 U.S. Dist. LEXIS 14} context. See Day. 969 F.2d at 43.4 But it has stated that
"’[k]knowledge of the comparative sentence exposure between standing trial and accepting a plea
offer will often be crucial to the decision whether to plead guilty.'" U.S. v. Booth. 432 F.3d 542, 549 (3d

lyccases

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Cir. 2005) (quoting Day, 969 F.2d at 44).
24. Here, although Petitioner's ineffective assistance of trial counsel claim regarding the plea offer
was never raised in state court, Judge Heffley's analysis on the merits of this habeas claim was based
on the trial court record.
25. I find the trial court record to reflect that: (1) trial counsel met with Petitioner several times to ;
discuss the plea offer, asking the trial judge on at least three occasions to either give trial counsel
another opportunity to speak with Petitioner about the plea offer or leave the plea offer open in order
to provide Petitioner with more time to consider it; (2) trial counsel understood the impact of the
second victim’s death and requested that the trial judge allow her an opportunity to discuss the
consequences of that death with Petitioner (Petitioner acknowledges that trial counsel did, in fact,
inform him of the plea offer and the consequences of the second victim's death (Pet. Objs., ECF No.
20, at 6)); (3) the trial{2020 U.S. Dist. LEXIS 15} judge explained to Petitioner the charges against
him and the sentence that could result from each charge-20 years for each aggravated assault
charge, seven years for homicide by vehicle, and four years for third-degree murder; (4) the trial judge
informed Petitioner that the Commonwealth's offer would result in a sentence of 15 to 30 years in
exchange for resolving all charges against him; (4) the trial judge explicitly questioned Petitioner about
the plea offer and whether he understood his options; (5) although Petitioner expressed general
dissatisfaction with trial counsel's representation, Petitioner did not raise any specific deficiencies with
trial counsel's explanation of the plea offer (5) Petitioner affirmed to the trial judge that the plea offer
was communicated to him and that he wanted to proceed to trial; (6) and Petitioner changed his mind
regarding the plea at least twice on the eve of trial before ultimately entering a plea of not guilty.
Based on this evidence, I conclude that Petitioner’s trial counsel provided constitutionally competent
representation during the plea-bargaining process.
26. The only deficiencies that Petitioner now raises are trial counsel's alleged{2020 U.S. Dist. LEXIS
16} failure to inform him of his chances of winning at trial and what evidence the Commonwealth had
to produce in order to prove its case against him.5
27. Taking these alleged deficiencies as true, I find no clear error in Judge Heffley’s conclusion that,
based on the standard set forth in Lafler. Petitioner’s claim is meritless and, therefore, does not
excuse procedural default under Martinez. Petitioner baldly states that, if he had known that he had no
chance of winning at trial, then he would have accepted the plea offer. However, I find that holding trial
counsel to such a standard of performance is not reasonable under Strickland. See Lee v. US.. 137
S. Ct. 1958, 1966, 198 L. Ed. 2d 476 (2017) ("[Cjommon sense (not to mention our precedent)
recognizes that there is more to consider than simply the likelihood of success at trial. The decision
whether to plead guilty involves assessing the respective consequences of a conviction after trial and
by plea."); Boston v. Mooney. No. 14-229, 2015 U.S. Dist. LEXIS 148106, 2015 WL 6674530, at *19
(E.D. Pa. Jan. 9, 2015) (”[l]t must be held that a competent defense attorney may reasonably decline
to give a probability estimate .... In that regard, a defendant of ordinary intelligence can reasonably
infer the probabilities of success on that information alone."); see also Boston v, Moonev. 141 F.
Supp. 3d 352, 362 (E.D. Pa. Oct. 29, 2015) (recognizing the proposition{2020 U.S. Dist. LEXIS 17}
that "no specific estimate of the trial outcome is required" and that the defense attorney's refusal to
quantify any probability of success at trial was reasonable).
28. Although Petitioner considers it preferable or even more effective, trial counsel was not reasonably
required to tell Petitioner that he had no chance of winning at trial based on the Commonwealth's
evidence in order to provide effective assistance in the plea-bargaining context. I cannot engage in a
post hoc exercise in order to guarantee Petitioner a perfect trial with optimally proficient counsel. See
Marshall, 307 F.3d at 85. Rather, I can only guarantee that Petitioner received a fair trial with

lyccases

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

constitutionally competent counsel, and I conclude that Petitioner received constitutionally competent
representation regarding the plea offer.
29. The state court record shows that Petitioner was aware of the comparative sentence exposure of
standing trial and accepting the plea offer. This information, crucial to Petitioner's decision regarding
the plea, was explicitly communicated to Petitioner by the trial judge. See U.S. v. Booth. 432 F.3d at
549. And Petitioner admits that his trial counsel communicated the plea offer to him and that she
discussed with him the consequences{2020 U.S. Dist. LEXIS 18} of the second victim’s death. The
record also reflects that trial counsel made repeated efforts to discuss the plea offer with Petitioner
and provide him with more time to consider it. Finally, the state court record suggests that Petitioner
understood the advantages and disadvantages of the plea offer because, after he rejected the offer
and his counsel's efforts provided him with more time to consider the offer over the weekend,
Petitioner changed his mind and agreed to accept the offer before ultimately changing his mind again
and pleading not guilty.
30.1 therefore conclude that Petitioner has not established that trial counsel's alleged failure to inform
him that he had no chance of winning at trial was so insufficient or incorrect that it undermined his
ability to make an intelligent decision on whether to accept the plea offer. See Dav. 969 F.2d at 43.
31.1 also find that the alleged deficiencies relied on by Petitioner fail to establish that but for the
ineffective advice of counsel there was a reasonable probability that the plea offer would have been
presented to the trial court. Petitioner was aware of the comparative sentencing exposure between
standing trial and accepting the plea offer,{2020 U.S. Dist. LEXIS 19} and he twice changed his mind
before entering a plea of not guilty. Apart from Petitioner's bare allegation that he would have
accepted the plea offer if he had known that he had no chance of winning, Petitioner states no facts to
support that assertion or to undermine the evidence in the record belying that argument. See Lee. 137
S. Ct. at 1966 (reasoning that, even when the consequences of a conviction after trial and by plea are,
"from the defendant's perspective, similarly dire, even the smallest chance of success at trial may look
attractive”)
WHEREFORE, for the foregoing reasons, it is hereby ORDERED that:
1. Petitioner's "Request for Leave to Supplement and that this Court Treat His Response Filed on
7/17/19 as an Objection to U.S.M.J. Marilyn Heffley's Report [and] Recommendation" (ECF No.
26) is GRANTED as to the request to construe Petitioner's response filed in July 2019 as an
objection to the R&R. The request is DENIED in all other respects.
2. Petitioner's Objections (ECF No. 20) are OVERRULED.
3. The Report and Recommendation (ECF No. 19) is APPROVED and ADOPTED.
4. The Petition for Writ of Habeas Corpus (ECF No. 1) is DENIED with prejudice and DISMISSED
without a hearing.
5. There is no basis for{2020 U.S. Dist. LEXIS 20} the issuance of a certificate of appealability.
6. The Clerk of Court is directed to mark this case CLOSED.
BY THE COURT:
/s/ Mitchell S. Goldberg
MITCHELL S. GOLDBERG, J.

lyccases

7

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Footnotes

1
In lieu of engaging in a lengthy discussion of the factual background of Petitioner's state conviction
and resulting sentence, I incorporate by reference the factual and procedural history as set forth in the
Report and Recommendation.
2
In his September 25, 2019 filing, Petitioner also requests that he be permitted to supplement his
petition to raise one additional claim that he "uncovered" with the assistance of a "fellow
inmate/paralegal." (Pet. Req. to Suppl., ECF No. 26, at 2.) Petitioner claims that his trial counsel was
ineffective for failing to request that the jury be instructed on involuntary manslaughter as a lesser
included offense of third-degree murder. First, I do not construe Petitioner's request to add this
habeas claim as an application for a second or successive habeas petition because no final judgment
has been rendered on the merits of any of the claims in Petitioner's pending habeas petition. See 28
U.S.C. § 2244(a) ("No circuit or district judge shall be required to entertain an application for writ of
habeas corpus ... if it appears that the legality of such detention has been determined by a judge or
court of the United States on a prior application for a writ of habeas corpus
")
Yet, I do conclude that Petitioner's request is time-barred. Petitioner submitted his request to
supplement the habeas petition long after the one-year period of limitation had lapsed. See 28 U.S.C.
§ 2244(d)(1). The United States Court of Appeals for the Third Circuit has explained that, "allowing a
habeas petitioner to amend a habeas petition in order to raise a new claim or theory of relief would
frustrate Congress' intent under the AEDPA. But. . . insofar as a petitioner seeks to amend his
petition to 'provide factual clarification or amplification after the expiration of the one-year period of
limitations, then Fed. R. Civ. P. 15(c)[(1)]-describing when an amendment relates back to an original
pleading-governs.'" Peterson v. Brennan. 196 F. App'x 135, 140-1 (3d Cir. Sept. 26, 2006) (quoting
U.S. v. Thomas. 221 F.3d 430 (3d Cir. 2000)). Here, Petitioner does not seek to provide factual
clarification or amplification of one of his current habeas claims. Instead, he explicitly seeks to
supplement his petition to add "one additional claim for relief that warrants federal habeas review."
(Pet. Req. to Suppl., ECF No. 26, at 2.) Petitioner currently argues in his petition that his trial counsel
was ineffective for failing to request that the jury be instructed on involuntary manslaughter as a lesser
included offense of homicide by vehicle. Now, he seeks to add an ineffective assistance of trial
counsel claim based on how the jury was instructed as to a different charge, third degree murder,
which, as Petitioner acknowledges, states an independent ground for habeas relief. For this reason, I
conclude that Petitioner's new habeas claim is time-barred and will deny his request to supplement
the habeas petition.
3
In Martinez, the United States Supreme Court noted that when a state requires a petitioner to raise an
ineffective assistance claim on post-conviction review, rather than on direct appeal, a post-conviction
relief hearing is the first opportunity the petitioner has to have his or her ineffective assistance claim
heard. 566 U.S. at 9-13. The Court, therefore, concluded that a habeas petitioner may establish cause
and prejudice to allow a court to hear a defaulted ineffective assistance claim by showing that his or
her post-conviction relief counsel was ineffective in failing to properly raise that claim in the
post-conviction relief proceeding. ]d. at 13-14. To pursue such a claim, a petitioner must show that his
or her underlying ineffective assistance of counsel claim "is a substantial one, which is to say that the
prisoner must demonstrate that the claim has some merit" as defined by reference to the standard

lyccases

8

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

applicable to determining whether to grant certificates of appealability, jd. at 14.
4
Providing incorrect advice regarding a possible plea is not perse deficient. See, e.q.. Hill v. Lockhart.
474 U.S. 52, 60, 106 S. Ct. 366, 88 L. Ed. 2d 203 (1985) (reserving the issue of whether incorrect
advice regarding parole eligibility could be deemed deficient performance); Day, 969 F.2d at 43;
United States v. Nino. 878 F.2d 101, 105 (3d Cir. 1989) (reserving the issue of whether counsel's
performance was deficient in light of holding that petitioner was not prejudiced by counsel's failure to
inform him of deportation consequences of guilty plea).
5
I note that trial counsel's alleged failure to explain to Petitioner what evidence the Commonwealth had
to produce in order to prove its case against him was not raised in the habeas petition and was,
therefore, not before Judge Heffley. Petitioner's attempt to raise new facts in his objections to Judge.
Heffley's R&R that he failed to previously raise in his petition or at any point before the R&R was
issued does not form a sufficient basis to challenge the R&R's recommendation that this request for
habeas relief be denied. "A habeas petition must 'specify all grounds for relief available to the
petitioner and state the facts supporting each ground.'" Castillo v. Fisher, No. 14-0418, 2018 U.S. Dist.
LEXIS 17677, 2018 WL 701857, at *1 (M.D. Pa. Feb. 2, 2018) (quoting Mavle v. Felix. 545 U.S. 644,
655, 125 S. Ct. 2562, 162 L. Ed. 2d 582 (2005)).

1yccases

9

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of (he Matthew Bender Master Agreement.

Appendix C

Case: 20-2348

Document: 15-1

Page: 1

Date Filed: 03/25/2021

March 18, 2021
DLD-121
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2348
ROBERT CARTER,
Appellant
v.
SUPERINTENDENT RETREAT SCI; ET AL.
(E.D. Pa. Civ. No. 2-18-cv-02366)
Present:

JORDAN, KRAUSE, and PHIPPS, Circuit Judges
Submitted is Appellant’s document titled, “Applicant-Appellant’s Brief in
Support of Application for Certificate of Appealability,” which the Court
may wish to construe as a request for a certificate of appealability under 28
U.S.C. § 2253(c)(1)
in the above-captioned case.
Respectfully,
Clerk
ORDER

The foregoing request for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). The District Court ruled that Carter’s claim (4) asserting ineffective assistance
of trial counsel during the plea process was procedurally defaulted, but not excused under
Martinez v. Ryan. 566 U.S. 1,11 (2012) (holding that cause for the default of an
ineffective assistance of trial counsel claim may be established where post-conviction
counsel was ineffective and claim has “some merit”). Under these circumstances, “a
COA may issue only if the petitioner shows that: (1) ‘jurists of reason would find it
debatable whether the district court was correct in its procedural ruling;’ and (2) ‘jurists
of reason would find it debatable whether the petition states a valid claim of the denial of
a constitutional right.’” Pabon v. Superintendent. SCI-Mahanov. 654 F.3d 385, 392 (3d
Cir. 2011) (quoting Slack v. McDaniel. 529 U.S. 473, 478 (2000)). For essentially the
same reasons given by the District Court, Carter cannot meet that standard. See Lafler v.

Case: 20-2348

Document: 15-1

Page: 2

Date Filed: 03/25/2021

Cooper. 566 U.S. 156, 163 (2012); United States v. Dav. 969 F.2d 39, 43 (3d Cir. 1992)
(noting that the advice petitioner received was “so insufficient or incorrect as to
undermine his ability to make an intelligent decision whether to accept the plea offer”).
The District Court did not err by declining to hold an evidentiary hearing on this claim.
See 28 U.S.C. § 2254(e)(2); see also Palmer v. Hendricks. 592 F.3d 386, 394 (3d Cir.
2010) (ruling there was no abuse of discretion to deny evidentiary hearing where
petitioner failed to make a prima facie showing of prejudice); Schriro v. Landrigan. 550
U.S. 465, 474 (2007) (“[I]f the record refutes the applicant’s factual allegations or
otherwise precludes habeas relief, a district court is not required to hold an evidentiary
hearing.”).
By the Court,
s/ Cheryl Ann Krause
Circuit Judge A True Copy:'0

Dated: March 24, 2021
CLW/cc: Todd Mosser, Esq.

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 20-2348

Document: 15-2

Page: 1

Date Filed: 03/25/2021

OFFICE OF THE CLERK
PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals

TELEPHONE

21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

215-597-2995

Website: www.ca3.uscourts.gov
March 25, 2021

District Attorney Philadelphia
Philadelphia County Office of District Attorney
3 South Penn Square
Philadelphia, PA 19107

Todd M. Mosser, Esq.
448 North 10th Street
Suite 502
Philadelphia, PA 19123

RE: Robert Carter v. Superintendent Retreat SCI, et al
Case Number: 20-2348
District Court Case Number: 2-18-cv-02366
ENTRY OF JUDGMENT
Today, March 25, 2021 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.

Case: 20-2348

Document: 15-2

Page: 2

Date Filed: 03/25/2021

Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk

By: s/Carmella
Case Manager
267-299-4928

cc: Ms. Kate Barkman

Appendix D

#

COMMONWEALTH OF PENNSYLVANIA v. ROBERT CARTER. Appellant
SUPERIOR COURT OF PENNSYLVANIA
2017 Pa. Super. Unpub. LEXIS 1827; 170 A.3d 1220
No. 1195 EDA 2016
May 16, 2017, Decided
May 16,2017, Filed

Notice:
NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37PUBLISHED IN TABLE
FORMAT IN THE ATLANTIC REPORTER.
Editorial Information: Subsequent History
Appeal denied by Commonwealth v. Carter, 176 A.3d 851, 2017 Pa. LEXIS 3783 (Pa., Dec. 20, 2017)
Editorial Information: Prior History
Appeal from the PCRA Order entered March 24, 2016, in the Court of Common Pleas of Philadelphia
County, Criminal Division, at No(s): CP-51-CR-0007203-2011.Commonwealth v. Carter, 105 A.3d 791
2014 Pa. Super. LEXIS 3441 (Pa. Super. Ct., July 15, 2014)
Judges: BEFORE: MOULTON, RANSOM, and FITZGERALD,* JJ. MEMORANDUM BY RANSOM, J.
Opinion
Opinion by:

RANSOM
Opinion

MEMORANDUM BY RANSOM, J.:
Appellant, Robert Carter, appeals pro se from the March 24, 2016 order denying his petition filed
pursuant to the Post Conviction Relief Act (PCRA), 42 Pa.C.S. §§ 9541-9546. We affirm.
The pertinent facts and procedural history, as gleaned from our review of the certified record, are as
follows. On April 5, 2011, police observed Appellant operating a stolen car, activated their lights and
sirens, and began following the vehicle. Instead of pulling over, Appellant ran a stop sign and
accelerated. A high speed-chase ensued, which ultimately ended when Appellant hit another car and
crashed into a building. Appellant's passenger, who was his good friend, was ejected upon impact and
died at the scene. The person in the other car also suffered serious injury, as well as three
pedestrians who were standing on the sidewalk waiting for a-bus.
On February 13, 2013, a jury convicted Appellant of third-degree murder, homicide by vehicle, and
related charges. On April 19, 2013, the trial court sentenced Appellant to an aggregate term of
twenty-five to fifty years of imprisonment. Appellant filed a post-sentence motion, which the trial court
denied on August 6, 2013. Appellant timely filed an appeal to this Court, in which he challenged the
sufficiency and weight of the evidence supporting his convictions, as well as a claim that the trial court
abused its discretion in allowing the Commonwealth to introduce evidence that, on three prior
occasions, he had fled from police while operating a motor vehicle or ATV. In an unpublished

lpacases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

memorandum filed on July 15, 2014, we rejected Appellant’s claims and, therefore, affirmed his
judgment of sentence. Commonwealth v. Carter, 105 A.3d 791 (Pa. Super. 2014) (unpublished
memorandum).
Appellant timely filed a PCRA petition in which he raised certain claims of ineffective assistance of trial
counsel. After a change of appointed-counsel, PCRA counsel ultimately filed a "no-merit" letter and
petition to withdraw pursuant to Commonwealth v. Turner, 518 Pa. 491, 544 A.2d 927 (Pa. 1988),
and Commonwealth v. Finley, 379 Pa. Super. 390, 550 A.2d 213 (Pa. Super. 1988) (en banc). 1 On
February 22, 2016, the PCRA court issued Pa.R.Crim.P. 907 notice of intent to dismiss Appellant's
PCRA petition without a hearing. Appellant did not file a response. By order entered March 24, 2016,
the PCRA court dismissed Appellant’s PCRA petition. This appeal follows. Both Appellant and the
PCRA court have complied with Pa.R.A.P. 1925.
Within his brief, Appellant asserts that the PCRA court erred in denying his PCRA petition without first
holding an evidentiary hearing because he raised a genuine issue of material fact as to whether trial
counsel was ineffective for failing to: 1) object to the nolle prosequi of the involuntary manslaughter
charge and request that the jury be instructed on this lesser-included offense; 2) investigate and
present witnesses on his behalf; 3) object to his removal from the courtroom without the trial court
conducting a colloquy to ensure that the waiver of his presence was knowing and intelligent; 4) object
to the autopsy report when the coroner who conducted the autopsy did not testify at trial; 5) object
when inadmissible hearsay was introduced at trial and submitted to the jury to consider in establishing
malice; 6) object when evidence of prior bad acts was admitted where such bad acts were actually
dismissed and therefore inadmissible; and 7) to file a pre-trial motion asserting the violation of his
speedy trial rights. See Appellant's Brief at 4. We will address these claims in the order presented.
When examining a post-conviction court's grant or denial of relief, we are limited to determining
whether the court's findings were supported by the record and whether the court's order is otherwise
free of legal error. Commonwealth v. Quaranibal, 2000 PA Super 371, 763 A.2d 941, 942 (Pa.
Super. 2000). We will not disturb findings that are supported in the record. Id. The PCRA provides no
absolute right to a hearing, and the post-conviction court may elect to dismiss a petition after
thoroughly reviewing the claims presented and determining that they are utterly without support in the
record. Id.
Because Appellant's claims challenge the stewardship of trial counsel, we apply the following
principles. The law presumes counsel has rendered effective assistance. Commonwealth v. Rivera,
2010 PA Super 237, 10 A.3d 1276, 1279 (Pa. Super. 2010). The burden of demonstrating
ineffectiveness rests on Appellant, id. To satisfy this burden, Appellant must plead and prove by a
preponderance of the evidence that: "(1) his underlying claim is of arguable merit; (2) the particular
course of conduct pursued by counsel did not have some reasonable basis designed to effectuate his
interests; and, (3) but for counsel's ineffectiveness, there is a reasonably probability that the outcome
of the challenged proceedings would have been different." Commonwealth v. Fulton, 574 Pa. 282,
830 A.2d 567, 572 (Pa. 2003). Failure to satisfy any prong of the test will result in rejection of the
appellant's ineffective assistance of counsel claim. Commonwealth v. Jones, 571 Pa. 112, 811 A.2d •
994, 1002 (Pa. 2002).
In assessing a claim of ineffectiveness, when it is clear that appellant has failed to meet the prejudice
prong, the court may dispose of the claim on that basis alone, without a determination of whether the
first two prongs have been met. Commonwealth v. Travaglia, 541 Pa. 108, 661 A.2d 352, 357 (Pa.
1995). Counsel will not be deemed ineffective if any reasonable basis exists for counsel's actions.
Commonwealth v. Douglas, 537 Pa. 588, 645 A.2d 226, 231 (Pa. 1994). Even if counsel had no
reasonable basis for the course of conduct pursued, however, an appellant is not entitled to relief if he

lpacases

2

.

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

fails to demonstrate the requisite prejudice which is necessary under Pennsylvania's ineffectiveness
standard. Douglas, 645 A.2d at 232.
Appellant first claims that trial counsel was ineffective for failing to object to the withdrawal of the
involuntary manslaughter charge and for failing to request that the jury be instructed on that crime
because it is a lesser included offense of homicide by vehicle.
This Court has summarized:

v

There is no requirement for the trial judge to instruct the jury pursuant to every request made to
the court. In deciding whether a trial court erred in refusing to give a jury instruction, we must
determine whether the court abused its discretion or committed an error of law.
A defendant is entitled to a [jury] charge on a lesser-included offense only where the evidence has
been made an issue in the case and the evidence would reasonably support such a verdict.
Instructions regarding matters which are not before the court or which are not supported by the
evidence serve no purpose other than to confuse the\ury.Commonwealth v. Phillips, 2008 PA
Super 30, 946 A.2d 103, 110 (Pa. Super. 2008) (citations omitted). "An offense may be
considered a lesser included offense if each and every element of the lesser offense is
necessarily an element of the greater offense." Commonwealth v. Brandon, 2013 PA Super
285, 79 A.3d 1192, 1194 (Pa. Super. 2013).
Here, the PCRA court determined that the evidence presented would not support an involuntary
manslaughter conviction:
In order to establish that [Appellant] was guilty of homicide by vehicle, the Commonwealth was
required to prove that [he] caused the death of [the victim] by acting recklessly or with gross
negligence, while violating any law or ordinance applying to the operation of a motor vehicle. 75
Pa.C.S. § 3732; Commonwealth v. Pedota, 2013 PA Super 27, 64 A.3d 634 636 (Pa. Super.
2013). In order to establish that [Appellant] was guilty of involuntary manslaughter, the
Commonwealth would have to prove that [he] caused the death of [the victim] by doing an act in a
reckless or grossly negligent manner. 18 Pa.C.S. § 2504(a); Pedota, 64 A.3d at 636. Therefore,
homicide by vehicle includes all the elements of involuntary manslaughter, plus the additional
requirement that the death was caused while violating the [Vehicle Code], Accordingly, trial
counsel would have been entitled to request that involuntary manslaughter be submitted to the
jury if a reasonable juror could have found [Appellant] guilty of involuntary manslaughter but not
guilty of homicide by vehicle.
The evidence at trial, however, clearly established the contrary. In particular, there was
overwhelming evidence that [Appellant's] reckless and grossly negligent conduct consisted of
multiple violations of the [Vehicle Code],
***
[T]he evidence demonstrated that [Appellant] recklessly and with gross negligence caused [the
victim's] death by driving through a red light at a high rate of speed, thereby violating the laws
applying to a motor vehicle. Because no reasonable^juror could have found [Appellant] guilty of
involuntary manslaughter, but not guilty of homicide by vehicle, any request by trial counsel to
submit the involuntary manslaughter charge to the jury would have been rejected.PCRA Court
Opinion, 6/20/16, at 6-7.
Our review of the evidence presented at trial supports the PCRA court's conclusions. Trial counsel
cannot be found ineffective for pursuing a meritless claim. Commonwealth v. Loner, 2003 PA Super
393, 836 A.2d 125, 132 (Pa. Super. 2003) (en banc). Thus, Appellant's first issue fails.

lpacases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

In his second issue, Appellant claims that trial counsel was ineffective for failing to call the victim's
sister to testify on his behalf. See Appellant's Brief at 15. In order to establish that trial counsel was
ineffective for failing to investigate and/or call a witness at trial, a PCRA petitioner must demonstrate
that:
(1) the witness existed; (2) the witness was available; (3) trial counsel was informed of the
existence of the witness or should have known of the witness's existence; (4) the witness was
prepared to cooperate and would have testified on appellant's behalf; and (5) the absence of the
testimony prejudiced appellant. Commonwealth v. Hall, 2005 PA Super 33, 867 A.2d 619, 629
(Pa. Super. 2005).
During the final day of the proceedings, trial counsel informed the court that she had been approached
by members of the victim's family, and that the victim's sister "has requested to testify during the trial
regarding the relationship between the two." N.T., 2/13/13, at 82. The trial court agreed with trial
counsel's assessment that such testimony was "inappropriate" and more relevant as a victim impact
statement at sentencing. Id. The trial court then informed the victim's sister that she had no relevant
evidence for trial, but that she could testify at sentencing. See id. at 83. Given these circumstances,
the only Hall factor at issue is whether the absence of testimony from the victim's sister prejudiced
Appellant. According to Appellant, "[h]ad the jury been provided the opportunity to consider [his]
friendship with the [victim] coming from a victim herself, a reasonable probability exists that the results
would have been different." Appellant’s Brief at 15.
The PCRA court found no merit to Appellant's claim:
[A]ny evidence regarding [Appellant's] relationship with the [victim] would have been irrelevant.
The [victim] was a passenger in a car being recklessly driven by [Appellant] at the time of the
crash that led to the charges in this case. There was never any contention that [Appellant]
intended to harm the [victim]. Therefore, evidence of a close relationship between [Appellant] and
the [victim] would not, in any manner, have refuted the Commonwealth's case.PCRA Court
Opinion, 6/20/16, at 8. We agree. Moreover, after reading the trial transcripts, it is clear that the
jury was aware, via arguments made by both the prosecutor and trial counsel, that Appellant and
the victim were good friends. See, e.g., N.T., 2/11/13, at 223 (in opening to the jury, the
prosecutor asserts the circumstances ultimately resulting in the victim's death "started out for
[Appellant] and his friend as a joy ride in a stolen vehicle"); N.T., 2/13/13 at 90 (in closing to the
jury, trial counsel states that "two young guys out in a fancy Acura, driving around for a joy ride"
ends up in a tragic accident where "one of the people in the car, who is good friends with
[Appellant], is deceased"). Once again, trial counsel cannot be faulted for failing to pursue this
meritless claim. Loner, supra.
In his third issue, Appellant asserts that trial counsel was ineffective for failing to object when he was
removed from the courtroom without the trial court first conducting a waiver colloquy. We agree with
the PCRA court's conclusion that this claim is waived because it does not appear in Appellant's pro se
petition, or in a Pa.R.Crim.P. 907 response, and is thus inappropriately raised for the first time on
appeal. See generally, Pa.R.A.P. 302(a); Commonwealth v. Rigg, 2014 PA Super 11, 84 A.3d 1080,
1084-85 (Pa. Super. 2014). Appellant's attempt to circumvent waiver by alleging a "layered
ineffectiveness claim" with regard to his first-court appointed post-conviction counsel, see n.1, is
unavailing. See Appellant's Brief at 16. The fault for failing to raise this claim via his original petition, or
in response to the PCRA court's Pa.R.Crim.P. 907 notice, lies wholly upon Appellant himself.
Moreover, Appellant's claim is specious. A review of the record reveals that the only reason no
colloquy was conducted was because Appellant refused to respond to the trial court's attempt to

lpacases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

provide him with one! See N.T., 2/13/13, at 41-42. Nevertheless, the record also establishes that
Appellant was moved to the back of the courtroom where he could hear the proceedings, and that he
decided to return to the courtroom prior to the court's charge to the jury. See id., at 45-47; 142-143.
Thus, Appellant's third issue fails.
In his fourth issue, Appellant argues that trial counsel was ineffective for failing to object to the
admission of the autopsy report introduced through the testimony of a forensic pathologist, because
the report was introduced to establish an element of the crimes charged, but the author of the report
did not testify. According to Appellant, his inability to cross-examine the coroner who conducted the
autopsy violated his rights under the Confrontation Clause of the Sixth Amendment to the U.S.
Constitution. See Appellant's Brief at 17-19.
The PCRA court found Appellant's ineffectiveness claim to lack arguable merit:
Under Pennsylvania law, a medical examiner who did not perform the autopsy at issue in the case
may still testify as to the cause and manner of death provided that the testifying expert is qualified
and sufficiently informed so as to be able to render his or her own opinion. Commonwealth v.
Buford, 2014 PASuper224, 101 A.3d 1182, 1198 (Pa. Super. 2014) (citingCommonwealth v.
AH, 608 Pa. 71, 10 A.3d 282, 306-307 (Pa. 2010)). Here, Dr. Allison Hunt, performed [the victim's]
autopsy, but was no longer employed by the Philadelphia Medical Examiner’s Office by the time of
[Appellant's] trial. N.T., 2/13/13 at 55. As a result, Dr. Aaron Rosen reviewed Dr. Hunt's report, as
well as autopsy photos and toxicology reports. N.T., 2/13/13 at 54-55. Dr. Rosen testified that,
after reviewing these materials, he formed his own, independent opinions and conclusions
regarding [the victim's] death. N.T., 2/13/13 at 55. Although Dr. Hunt's report was reviewed by Dr.
Rosen and admitted into evidence, Dr. Rosen never revealed any of Dr. Hunt’s opinions or
conclusions and the report was never presented to the jury. Because Dr. Rosen reached his own
independent conclusions regarding cause and manner of death after reviewing the materials in
the file, his opinions were properly admitted even though Dr. Hunt had performed the autopsy.
Buford, 101 A.3d at 1198. PCRA Court’s Opinion, at 9-10. We agree with the PCRA court's
conclusions that Appellant's underlying claim regarding the autopsy report is meritless. Thus, trial
counsel cannot be deemed to be ineffective for failing to object to this admissible evidence.
Loner, supra.
In his fifth issue, Appellant argues that trial counsel was ineffective for failing to object when
inadmissible hearsay was introduced to the jury to consider in establishing malice. According to
Appellant:
[He] has a 5th Amendment Right to remain silent and not be a witness against himself. This right
was stripped when the Commonwealth called Matthew Gavula to testify. Gavula testified to a
statement purportedly made by Appellant which the jury was instructed to consider in determining
the mens rea of Appellant on the most serious offense, third degree murder. Trial counsel failed to
object and thus, prejudiced Appellant as he was convicted on inadmissible hearsay.Appellant’s
Brief at 19.
Matthew Gavula was one of the first responders that spoke with Appellant upon arriving at the crash
scene. Mr. Gavula was the first witness called by the Commonwealth and testified that when he asked
Appellant what happened, a "[tjypical question on an accident scene," Appellant responded, "They
were chasing me." N.T., 2/11/13, at 268. Mr. Gavula then asked Appellant to whom he was referring,
and Appellant stated "[t]he police." Id. Trial counsel did not object to this testimony, and she did not
question Mr. Gavula further regarding Appellant’s statement.
The PCRA court found no merit to Appellant's claim because Mr. Gavula's testimony was not

1 pacases

5

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

inadmissible:
Out-of-court statements made by a party offered against that party at trial are admissible under an
exception to the hearsay rule. Pa.R.E. 803(25). As the statement at issue was made by
[Appellant], and offered by the Commonwealth, its admission did not contravene the hearsay rule.
Id.PCRA Court Opinion, 6/20/16, at 10-11. We agree with the PCRA court's conclusion.
Appellant’s statement to Mr. Gavula qualified as an "admission of a party opponent" under the
exception to the hearsay rule. See Pa.R.E. 803(25); Commonwealth v. Weiss, 622 Pa. 663, 81
A.3d 767, 800 (Pa. 2013) (explaining witness's testimony that the defendant threatened to shoot
the police if they knocked at his door was admissible under Pa.R.E. 803(25)). Thus, because trial
counsel cannot be deemed ineffective for failing to raise a meritless objection, Loner, supra,
Appellant's fifth issue fails.
In his sixth issue, Appellant argues that trial counsel was ineffective for failing to object to the
Commonwealth's admission of evidence of a prior bad act committed by Appellant in 2007 because
that proceeding was dismissed in its entirety. See Appellant's Brief at 20. Our review of the record
supports the PCRA court’s conclusion that this claim is waived because it was not raised in
Appellant's pro se petition or in response to the PCRA court's Pa.R.Crim.P. 907 notice. See PCRA
Court Opinion, 6/20/16, at 11 (citing Rigg, supra). Nevertheless, we note that this Court rejected
Appellant's challenge to the admissibility of these prior incidents into evidence. See Carter, supra,
memorandum opinion at 10-13. Thus, the claim has been previously litigated under the PCRA, see 42
Pa.C.S.A. § 9544(a), and Appellant's sixth claim fails.
In his final issue, Appellant asserts that trial counsel was ineffective for failing to file a pretrial motion
asserting that his right to a speedy trial under Pa.R.Crim.P. 600 was violated. Once again, our review
of the record supports the PCRA's court's conclusion that this claim was not preserved below and,
therefore, is inappropriately being raised for the first time on appeal. See PCRA Court Opinion,
6/20/16, at 11 (citing Rigg, supra).
In sum, Appellant's seven claims of trial court's ineffectiveness are either without merit, refuted by the
record, or waived. Thus, the PCRA court did not err or abuse its discretion in failing to schedule an
evidentiary hearing. We therefore affirm the PCRA court's order dismissing Appellant's PCRA petition.
Order affirmed.
Judgment Entered.
Date: 5/16/2017
Footnotes

1
Originally-appointed counsel filed a Turner/Finley letter, that the PCRA court deemed inadequate.
The PCRA court permitted that counsel to withdraw and appointed PCRA counsel. See PCRA Court
Opinion, 6/20/16, at 1-2.

lpacases

6

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group.'All rights reserved. Use of this product is subject to
the restrictions and terms and conditions of the Matthew Bender Master Agreement.

